Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Nursing Home Vaccination:
   Reaching Healthy People Goals




                   JUNE GIBBS BROWN
                    Inspector General

                       APRIL 2000
                      OEI-01-99-00010
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General and Joyce M. Greenleaf, Assistant Regional Inspector General.
Principal OEI staff included:

REGION                                                   HEADQUARTERS

Kenneth Price, Lead Analyst                              Susan Burbach, Program Specialist
Chaletta Clark, Program Analyst                          Elise Stein, Program Specialist


        To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                       http://www.hhs.gov/oei
                      EXECUTIVE                       SUMMARY


PURPOSE

         To identify ways to accelerate fulfillment of the Healthy People 2010 objective of
         vaccinating 90 percent of nursing home residents against influenza and pneumococcal
         disease.


BACKGROUND

         Influenza and pneumococcal vaccines are proven to reduce death and hospitalization
         among nursing home residents. Accordingly, an objective set forth by the Department of
         Health and Human Services (HHS) in its Healthy People 2010 public health goals is to
         increase vaccination rates for influenza and pneumococcal disease in nursing homes to 90
         percent. However, despite Medicare coverage of both vaccines, data suggest that nursing
         homes fall short of this mark. The National Nursing Home Survey from the Centers for
         Disease Control and Prevention (CDC) indicates that in 1995, 61 percent of nursing home
         residents received an annual influenza vaccination and only 22 percent have ever received
         the pneumococcal vaccine. In response, CDC and the Health Care Financing
         Administration (HCFA) have a number of efforts underway to encourage nursing homes
         to vaccinate their residents.

         This report draws on State initiatives to increase influenza and pneumococcal vaccination
         coverage in nursing homes. We chose to profile State initiatives because States are taking
         an increasing role in adult vaccination and their efforts can help illuminate ways to reach
         Healthy People goals. We gathered data for this study through literature reviews,
         telephone discussions with Federal officials and industry experts, site visits to States and
         nursing homes, and structured interviews with State officials and nursing home staff.


FINDINGS

Our review of State initiatives suggests that four levers of change can be
influential in reaching the Healthy People 2010 objective for vaccinating nursing
home residents.

         1.	 Making Vaccination a Standard Part of Admission. Integrating vaccination
             into the admission process enables nursing homes to address vaccination for every new
             resident in a routine, systematic manner.




Nursing Home Vaccination                          1                                     OEI-01-99-00010
         2.	 Collecting Uniform Data on Vaccination Coverage. Uniform data on
             vaccination coverage allows public health officials, long-term care regulators, and the
             nursing home industry to identify gaps in coverage and take action to close them.

         3.	 Facilitating Nursing Homes’ Access to Vaccines. Easier access to vaccines,
             through improved ordering, distribution, and reimbursement mechanisms, can help
             ensure that vaccines are readily available to nursing homes.

         4.	 Enhancing Education About Vaccine Safety and Efficacy. Better
             understanding about vaccine safety and efficacy among nursing home residents, staff,
             physicians, and residents’ families can help to increase vaccination in nursing homes.


OPPORTUNITIES FOR IMPROVEMENT

HCFA and CDC conduct a number of activities aimed at increasing nursing home vaccination.
Key efforts from HCFA include its simplified roster billing procedures, its nursing home Resident
Census, and its outreach through the Medicare PROs. Key CDC efforts include its new handbook
on nursing home vaccination, its biannual National Nursing Home Survey, and its vaccination
guidelines. In addition, the agencies frequently collaborate to educate nursing homes and others
about the importance of vaccination. For example, they host the National Adult Immunization
Conference, which provides States, nursing homes, and others with a forum to share effective
practices for increasing vaccination rates.

Beyond these efforts, the levers in this report prompt us to identify options for additional action
toward fulfillment of the Healthy People objective for nursing home vaccination. We direct three
options exclusively to HCFA and a fourth jointly to HCFA and CDC. We focus primarily on
HCFA because it has responsibility for quality oversight of nursing homes and thus could more
directly influence nursing homes’ actions. However, we recognize that CDC plays an important
role and that its involvement will be vital to progress in each area.

         HCFA could require nursing homes to assess residents for vaccinations upon
         admission. Such a requirement would integrate vaccination into the admission process
         and ensure that nursing homes offer needed vaccinations in a routine and systematic
         manner. HCFA could strengthen its existing nursing home regulations on infection control
         by instructing nursing home surveyors to probe for policies and procedures that follow the
         latest vaccination guidelines published by CDC. Tools such as standing orders and
         revolving consent forms could help nursing homes meet the requirement.

         HCFA could add vaccination to the Minimum Data Set, which nursing homes
         collect during routine Resident Assessments. The Minimum Data Set is data that
         HCFA requires nursing homes to collect during in-depth, recurring evaluations of
         residents’ health status, called Resident Assessments. Adding vaccination to this data set
         would provide HCFA and CDC with data that are better-suited for focusing improvement
         efforts than those available from either the National Nursing Home Survey or the

Nursing Home Vaccination                          2                                     OEI-01-99-00010
         Resident Census.

         HCFA could increase the use of the PROs, fiscal intermediaries, and carriers to
         teach nursing homes about Medicare roster billing. The recent implementation of
         Medicare’s prospective payment system for nursing homes underscores the need for
         additional education about Medicare roster billing. To make the most effective use of its
         resources, HCFA could use billing or other data to identify and focus efforts on nursing
         homes that have the most difficulty billing Medicare.

         HCFA and CDC could use the Minimum Data Set to identify and reach out to
         nursing homes with low vaccination rates. If HCFA chose to use the Minimum Data
         Set to collect vaccination data, it and CDC could use these data to identify and reach out
         to lagging nursing homes through their networks of regional and field offices. This
         approach would leverage the expertise of local HCFA and CDC staff, who are familiar
         with local nursing homes and the populations they serve, as well as the educational
         barriers that nursing homes face.


COMMENTS ON THE DRAFT REPORT

         We received comments from HCFA, CDC, and the HHS Assistant Secretary for Program
         Evaluation (ASPE).

         The HCFA and ASPE concurred with the opportunities for improvement we identified. In
         its comments, HCFA outlined its plans for adding vaccination to the MDS, for increasing
         the use of Medicare contractors and PROs to teach nursing homes about Medicare roster
         billing, and for using MDS data to target education. Regarding mandating that nursing
         homes assess residents for vaccinations upon admission, HCFA outlined efforts it and its
         contractors are taking to persuade nursing homes to integrate vaccination into the
         admission process. However, it agreed that if these efforts are unsuccessful, it could
         consider making vaccination a mandatory Condition of Participation for nursing homes.
         We are pleased that HCFA has agreed to take action in each of the areas we identified.

         Based on comments from CDC, we strengthened language related to integrating
         vaccination into the admission process, referenced ACIP recommendations for vaccination
         of nursing home staff, and clarified language throughout the report.




Nursing Home Vaccination                          3                                    OEI-01-99-00010
                       TABLE                      OF             CONTENTS

                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


         Four Levers of Change . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


              Admission Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


              Uniform Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


              Vaccine Access . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


              Education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDICES


         A:	 Measurement Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


              Mandate Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


              Purchase Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


              Education Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


         B: Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


         C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34





Nursing Home Vaccination                                     4                                               OEI-01-99-00010
                             INTRODUCTION



PURPOSE

         To identify ways to accelerate fulfillment of the Healthy People 2010 objective of
         vaccinating 90 percent of nursing home residents against influenza and pneumococcal
         disease.


BACKGROUND

Life-Saving Vaccines That Are Covered by Medicare

         Influenza and pneumococcal vaccines are proven to reduce death and hospitalization
         among nursing home residents.1,2 Vaccination guidelines from the Advisory Committee on
         Immunization Practices (ACIP) of the Centers for Disease Control and Prevention (CDC)
         state that nursing home residents age 65 and over should receive the influenza vaccine
         annually and the pneumococcal vaccine once in their lifetimes.3,4 ACIP guidelines also
         recommend that staff who care for nursing home residents receive annual influenza
         vaccinations as well.5 Both vaccines are covered by Medicare.

         Accordingly, an objective set forth by the Department of Health and Human Services
         (HHS) in its Healthy People 2000 public health goals is to increase vaccination rates for
         influenza and pneumococcal disease in nursing homes to 80 percent of all residents by the
         year 2000.6 The newest objective recently put forth in Healthy People 2010 aims to
         increase vaccination coverage even further — to 90 percent by the year 2010.7

Usage Lags in Nursing Homes

         However, data suggest that vaccination rates in nursing homes lag far behind the objective
         set forth in Healthy People.8 For example, the CDC National Nursing Home Survey
         indicates that in 1995, 61 percent of nursing home residents received an annual influenza
         vaccination and only 22 percent have ever received the pneumococcal vaccine.9 The
         survey also indicates that the dual vaccination rate may be as low as 21 percent.10 These
         low rates show that nursing homes miss a significant opportunity to reduce death and
         hospitalization by giving more residents these vaccines.

         Many factors help to explain low vaccination rates in nursing homes. Barriers include
         failure to get physician orders and resident consent to vaccination, poor documentation of
         vaccination, difficulty with reimbursement and Medicare billing, concerns about the safety
         and efficacy of vaccines, and low priority of vaccination in the nursing home.


Nursing Home Vaccination                          5                                    OEI-01-99-00010
Current Federal Activity in Nursing Homes

         HHS agencies conduct a variety of outreach to encourage nursing homes to vaccinate
         their residents. For example, as part of its Influenza and Pneumococcal Campaign, the
         Health Care Financing Administration (HCFA) publishes fact sheets and guides to help
         nursing homes understand Medicare coverage and reimbursement for vaccines. CDC
         publishes ACIP guidelines for vaccine usage, provides technical assistance to nursing
         homes, and surveys them on vaccination coverage rates. Both agencies work with outside
         groups that wish to increase vaccination coverage in nursing homes. Finally, Medicare
         Peer Review Organizations (PROs) in several States are leading improvement projects to
         help nursing homes increase vaccination coverage.

State Vaccination Initiatives Can Be Key

         State vaccination initiatives can play a key role in increasing vaccination rates. As part of
         these initiatives, States assemble resources from broad coalitions to increase vaccination
         coverage within a given target population. State initiatives may involve Federal, county,
         and local government, public health networks, provider associations, community
         organizations, and others. In fact, a variety of State initiatives, ranging from grass-roots
         education to rule-making, have played large roles in the success of childhood vaccination
         in the United States.11 Similarly, State initiatives to improve vaccination coverage among
         nursing home residents are beginning to play an essential role as adult vaccination
         continues to increase in priority.

This Inquiry

         This report draws on State initiatives to increase influenza and pneumococcal vaccination
         coverage in nursing homes. It is not an evaluation of State initiatives nor is it a definitive
         list of all State efforts to increase vaccination coverage in nursing homes. Rather, we use
         States’ experiences to explore the actions necessary to speed attainment of the Healthy
         People 2010 objective for nursing home vaccination.

         We collected data for this report in two stages. First, we located a pool of State initiatives
         by conducting literature reviews and holding discussions with officials from CDC, HCFA,
         State governments, representatives of trade groups, and vaccination coalitions. We then
         categorized the initiatives according to four broad approaches: measurement of
         vaccination rates, vaccination mandate, vaccine purchase, and education. We then
         purposely selected one to three State initiatives from each category, based on their scope,
         length of time underway, and experience, among other aspects. The States whose
         initiatives we chose were Massachusetts, Montana, Illinois, New Jersey, Delaware,
         Oklahoma, Louisiana, and New York.

         During the second phase of our data collection, we gathered information to generate a
         profile of each of the eight State initiatives. During this phase we conducted structured
         interviews with officials from each State, either over the telephone or on-site; conducted



Nursing Home Vaccination                            6                                      OEI-01-99-00010
         structured interviews on-site at six nursing homes in three of the States; and held
         conversations with other stakeholders, including nursing home trade associations and
         Medicare PROs.

         This inquiry describes key levers of change to increase vaccination coverage in nursing
         homes. Along with each lever, we give a brief summary of corresponding State initiatives
         (See Appendix A for a full description of each State’s initiative). In addition we use these
         levers to identify options that HHS could take to accelerate fulfillment of Healthy People
         objective for nursing home vaccination.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Nursing Home Vaccination                          7                                     OEI-01-99-00010
                                     FINDINGS


Our review of State initiatives suggests that four levers of change can
be influential in reaching the Healthy People 2010 objective for
vaccinating nursing home residents.

1. 	Making Vaccination a Standard Part of Admission. Integrating vaccination into the
    admission process enables nursing homes to address vaccination for every new resident in a
    routine, systematic manner.

         When nursing homes fail to address vaccination during admission, vaccination can become
         a disjointed and complex process. For example, after admission, obtaining simple, yet
         critical information about the resident’s vaccination history and allergies becomes more
         difficult. Physicians can forget to assess residents for vaccination and to write orders for
         vaccines. Getting the resident’s or his/her family’s consent to vaccination can become a
         major hurdle after admission. The admission period is optimal because it brings together
         people and information that are key to the vaccination process — including the resident,
         his or her family, medical records, and the nursing home staff and physicians who are
         responsible for the resident’s care. In addition, the admission period is ideal for
         implementing systematic vaccination tools such as revolving consent forms, which require
         nursing homes to gain consent only once for annual influenza vaccinations, and standing
         orders, which eliminate the need for physicians to write individual orders for vaccines.12
         When vaccination is a standard part of admission, nursing homes can use this collection of
         resources to ensure that vaccination is automatically addressed for every new resident.13
         In fact, CDC guidelines from the ACIP recommend that nursing homes use the admission
         process as part of their influenza vaccination programs.

         New Jersey
         New Jersey administrative code mandates that nursing homes offer every resident
         influenza and pneumococcal vaccines upon admission. To meet State requirements,
         nursing homes must assess every admission for vaccination and document acceptance or
         refusal of vaccines in each resident’s vaccination record. Nursing home staff we spoke
         with said they used vaccination protocols to make vaccination a standard part of their
         admission process. They did not find the procedures to be particulary burdensome to
         implement. Citing high compliance with the mandate and few disease outbreaks in nursing
         homes, State officials said their efforts have made a difference in vaccination coverage.

         Delaware
         Since 1990, regulations from the Delaware State Board of Health have required nursing
         homes to vaccinate their residents against influenza and pneumococcal disease according




Nursing Home Vaccination                          8                                     OEI-01-99-00010
          to the recommendations of the ACIP. To comply with the mandate, nursing homes must
         maintain evidence on-file of annual influenza vaccination and one-time pneumococcal
         vaccination for every resident. The Board of Health assesses compliance with the
         mandate during the infection control portion of its annual licensure surveys of nursing
         homes. During early enforcement of the mandate, Board of Health surveyors cited about
         10 percent of nursing homes with deficiencies for not complying with the mandate —
         mainly due to problems documenting contraindications to vaccination. State officials said
         that beyond these isolated problems during the first year of the mandate, they have had no
         difficulty obtaining full compliance.

2. 	Collecting Uniform Data on Vaccination Coverage. Uniform data on vaccination
    coverage allows public health officials, long-term care regulators, and the nursing home
    industry to identify gaps in vaccination coverage and take action to close them.14

         Without uniform, reliable data on vaccine use in nursing homes, it is nearly impossible to
         focus meaningful efforts on increasing vaccination rates. Public health officials are unable
         to learn where the vaccine delivery system is breaking down. Regulators have no way to
         scan for nursing homes with lagging vaccination rates. The nursing home industry cannot
         discover and share best practices of those with exceptional rates. Yet, these activities
         form an essential ingredient of focused and informed action to increase vaccination rates.
         In the absence of data from these activities, efforts to increase vaccination rates may
         amount to little more than grasping at straws. In fact, half of the States we profiled for
         this report had to conduct a survey of nursing homes as the first step in their initiative to
         increase vaccination coverage.

         Massachusetts
         Massachusetts has made progress in collecting uniform data on vaccination in nursing
         homes. For the past 3 years, the State has conducted a “Pneumonia Survey” to learn
         about vaccination practices in nursing homes. Using the survey, the State has been able to
         learn where vaccination rates lag and where to target educational efforts. For example, it
         learned from its survey that, in 1997, 82 percent of nursing home residents in the State
         received an influenza vaccination. However, it also learned that pneumococcal
         vaccination and vaccination of nursing home staff trail far behind that of influenza.
         Preliminary data from the 1998 survey show that rates are climbing, but still have room for
         improvement. The State plans to use these data to design educational programs for
         nursing homes and to challenge those with low vaccination rates to improve.

         Montana
         To track vaccination in nursing homes, the Montana Immunization Program conducted
         vaccination surveys in 1991, 1994, 1996, and 1998. The survey collected data on resident
         and staff vaccination levels as well as data on vaccination policies. Program officials use
         the survey data to assess progress on reaching the Healthy People 2000 vaccination goals
         and to guide educational strategies. For example, 1998 survey data revealed that
         Montana’s nursing homes exceed the Healthy People 2000 objective for influenza
         vaccination but lag in pneumococcal vaccination and vaccination of nursing home staff.



Nursing Home Vaccination                           9                                     OEI-01-99-00010
         To address these and other issues, Program officials are compiling a vaccination training
         manual for their field nurses to use when they visit nursing homes. They have also shared
         survey data with nursing homes to highlight the State’s progress toward meeting the
         Healthy People 2000 goals and to make best practice recommendations.

         Illinois
         Since 1993, Illinois has surveyed nursing homes to collect vaccination data and to increase
         nursing homes’ awareness of strategies to prevent influenza and pneumococcal disease.
         The survey collects data on nursing homes’ vaccination coverage, policies for staff and
         resident vaccination, and Medicare billing activity. Although State officials consider self-
         reported vaccination rates unreliable, they make use of aggregate data by sharing it with
         other stakeholders in nursing home vaccination. For example, officials share aggregate
         survey data with the State’s survey and certification agency, who use it to bring attention
         to vaccination during on-site visits to nursing homes. Officials also share data with the
         Illinois Adult Vaccination Coalition, of which the State is a founding member. The
         coalition includes the Medicare PRO and Part B carrier, nursing home trade associations,
         and the HCFA regional office, among others.

3. 	Facilitating Nursing Homes’ Access to Vaccines. Easier access to vaccines, through
    improved ordering, distribution, and reimbursement mechanisms, can help ensure that
    vaccines are readily available at nursing homes.

         Hurdles that stand between nursing homes and vaccines place the vaccination of nursing
         home residents in jeopardy. For example, low reimbursement and burdensome
         paperwork, such as applying for billing numbers and completing lengthy claims forms, can
         discourage nursing homes from vaccinating their residents. Another hurdle can be the
         process for ordering influenza vaccine — which nursing homes must complete months in
         advance of the flu season. Even when nursing homes are committed to offering influenza
         vaccine to all residents, failure to order vaccines early enough and the resulting vaccine
         shortages can create unexpected crises — sometimes dangerously compromising nursing
         homes’ immunity levels during the peak of flu season.15

         Oklahoma
         Since 1991, Oklahoma has enhanced access to vaccines by providing free influenza
         vaccine to nursing homes and, beginning with the 1999 flu season, it plans to provide free
         pneumococcal vaccine as well. State officials report that the largest challenge they face is
         getting enough funding to meet demand for vaccines. For example, in 1998, the State was
         unable to provide influenza vaccine to 17 percent of facilities due to funding limitations.
         Additionally, officials project that funding limitations will prevent their pneumococcal
         vaccine program from meeting demand as well. As a result, Oklahoma officials have
         started a program to recoup some of their vaccine costs by billing Medicare for doses
         given to Medicare-eligible nursing home residents. However, they report difficulty getting
         homes to send in billing information that is required for Medicare reimbursement. To
         overcome this problem, officials plan to hire a contractor to provide technical assistance to
         nursing homes and to bill Medicare on the State’s behalf.



Nursing Home Vaccination                          10                                     OEI-01-99-00010
         Louisiana
         Louisiana ensures access to influenza vaccine by providing it to nursing homes free of
         charge. Citing a 90 percent vaccination rate, State officials say that vaccination has
         become ‘standard procedure’ at Louisiana’s nursing homes over the 15 years that their
         influenza program has been in place. Recently, the State began working with the local
         Medicare PRO to teach nursing homes how to bill Medicare for vaccination. This would
         allow nursing homes to be paid for administering the influenza vaccine and would enable
         the State to recoup some vaccine costs. However, despite the financial incentive for
         nursing homes, State officials report problems getting them to provide information that
         Medicare requires for reimbursement, such as each resident’s name, address, Medicare
         number, date of birth, signature, and the date the vaccination was given. This difficulty
         with billing for influenza vaccine has prompted State officials to delay expanding their
         program to include pneumococcal vaccine, which was funded with the stipulation that the
         cost of the vaccine be recovered by billing Medicare.

4. 	Enhancing Education About Vaccine Safety and Efficacy. Better understanding
    about vaccine safety and efficacy among nursing home residents, staff, physicians, and
    residents’ families can help to increase vaccination in nursing homes.

         Fear and misperceptions among nursing home residents, staff, physicians, and residents’
         families about influenza and pneumococcal vaccines remain significant barriers to
         vaccination. Residents’ and their families’ fears about catching the flu or pneumonia from
         vaccines can discourage residents from accepting vaccination. Furthermore, residents’
         reluctance to accept vaccination grows when their physicians lack confidence that vaccines
         effectively protect them from illness and death. Staff who refuse vaccination not only
         compromise the safety of the residents they care for, but also provide little reassurance to
         residents who are uncertain about vaccination. Even in nursing homes that systematically
         offer vaccines to every resident and staff member, fear and misperceptions about
         vaccination can restrain coverage to only marginal levels.16,17

         New York
         Since the 1970s, New York has informed nursing homes about influenza by sending an
         annual packet of information to all nursing homes in the State. Sent during flu season, the
         packet contains guidelines on influenza vaccination, model consent forms, instructions on
         how to order vaccines, and a fact sheet for educating residents, among other things.18
         State officials admit that, due to resource limitations, a weakness of their educational
         program is their inability to personally follow-up with nursing homes to reinforce the
         information they send out in their packets. Ironically, it is outbreaks of influenza and
         pneumococcal disease — which the State’s educational program aims to prevent — that
         provide officials with the best opportunity to educate nursing homes about vaccination,
         since officials must go on-site to investigate each outbreak. Nursing home officials we
         spoke with appreciated the State’s efforts, but felt that it should do more to target nursing
         home residents, their families, and the residents’ doctors, who can be influential
         vaccination advocates.




Nursing Home Vaccination                          11                                     OEI-01-99-00010
         Other States
         Officials from States that conduct initiatives to measure vaccination rates, mandate
         vaccination, and purchase vaccines reinforced the importance of buttressing their efforts
         with education targeted toward nursing home staff, administrators, residents, and their
         families. For example, Massachusetts and Montana both use survey data to guide
         provider education focused on lagging pneumococcal rates. New Jersey officials wish to
         supplement their vaccination mandate with education focused on residents and families to
         reduce high vaccine refusal rates. Officials in Oklahoma stress resident and staff education
         as one of the challenges they face to make the State’s vaccine purchase successful.




Nursing Home Vaccination                         12                                     OEI-01-99-00010
                           OPPORTUNITIES FOR
                             IMPROVEMENT



The State initiatives we present in this report represent a core set of efforts focused on four levers
to increasing nursing home vaccination. Concerted attention to these levers could speed progress
toward attaining the Healthy People 2010 objective for nursing home vaccination. Undoubtedly,
the experiences of the States we profiled can be instructive for States that are considering taking
action to increase vaccination coverage in nursing homes. As this report is not a conclusive list of
State initiatives, we encourage States and nursing homes to share their experiences and stimulate
discussion about effective practices for increasing vaccination rates in nursing homes.

At the Federal level, HCFA, the agency with regulatory authority over nursing homes, and CDC,
the agency charged with preventing and controlling disease, each have important roles to play in
increasing vaccination coverage in nursing homes. Both agencies have undertaken a variety of
initiatives aimed at increasing vaccination among nursing home residents, often in partnership with
one another.

In the following discussion, we outline opportunities that the levers we identified present to
HCFA and CDC in their efforts to increase nursing home vaccination. We organize our
discussion around each lever by first identifying key efforts that HCFA and CDC have taken and
then proposing an option for additional action. We direct three options exclusively to HCFA and
a fourth jointly to HCFA and CDC. We focus primarily on HCFA because it has responsibility for
quality oversight of nursing homes and thus could more directly influence nursing homes’ actions.
However, we recognize that CDC plays an important role and that its involvement will be vital to
progress in each area.


1. Making Vaccination a Standard Part of Admission.

    Both HCFA and CDC encourage nursing homes to offer vaccines to nursing home residents
    upon admission. For example, HCFA, CDC, and the Medicare PROs have begun a new
    initiative to help nursing homes adopt standing orders to offer vaccination to residents upon
    admission. Standing orders alleviate the need for physicians to write individual orders for
    each resident who needs vaccination. Within its recommendations for prevention and control
    of influenza and pneumococcal disease, CDC’s Advisory Committee on Immunization
    Practices continues to recommend standing orders as an important way of increasing
    vaccination coverage. These recommendations are widely considered to be the standard of
    care for vaccinations.




Nursing Home Vaccination                         13                                      OEI-01-99-00010
    HCFA could require nursing homes to assess residents for vaccinations upon
    admission.

    Such a requirement would integrate vaccination into the admission process and ensure that
    nursing homes assess new residents for needed vaccinations in a routine and systematic
    manner. To help nursing homes meet this requirement, HCFA could suggest that they use
    tools such as standing orders and revolving consent forms, which enable them to address
    annual flu vaccinations on a one-time basis. HCFA’s current regulations for certification of
    nursing homes state that they must have an infection control program designed to “help
    prevent the development and transmission of disease and infection” (42 C.F.R. 483.65).
    Although HCFA mentions vaccination in its guidance for assessing compliance with these
    regulations, it could give more prominence to vaccination at admission. For example, similar
    to its guidance for assessing compliance with hand-washing requirements, HCFA could
    instruct nursing home surveyors to probe for written vaccination policies and protocols that
    follow the latest published standards, such as those from CDC.


2. Collecting Uniform Data on Vaccination Coverage.

    HHS has in place two mechanisms for collecting data on vaccination coverage in nursing
    homes. The first is the National Nursing Home Survey (NNHS), which CDC conducts every
    other year. The NNHS gathers vaccination data through a chart review of residents’ records
    at 1,500 nursing homes across the United States. However, the NNHS sample is not designed
    to generate State- and nursing home-level vaccination rates, which Federal, State, and local
    stakeholders need to identify gaps in coverage and focus improvement efforts. The second
    mechanism HHS has in place is the HCFA Resident Census, which nursing home
    administrators complete prior to annual licensure and certification surveys. This instrument
    collects data on the numbers of vaccinated residents in each nursing home. However, the data
    are self-reported by nursing home staff and are not validated.

    HCFA could add vaccination to the Minimum Data Set, which nursing homes
    collect during routine Resident Assessments.

    The Minimum Data Set (MDS) is data that HCFA requires nursing homes to collect during in-
    depth evaluations of residents’ health status, called Resident Assessments. Adding
    vaccination to the MDS would provide HCFA and CDC with data that are better-suited for
    focusing improvement efforts than those available from either the NNHS or the Resident
    Census. For example, because nursing homes complete a Resident Assessment for each
    resident upon admission and at regular intervals thereafter, MDS data could be aggregated to
    the State- and nursing home-levels, unlike data from the NNHS. Moreover, Resident
    Assessments are based on documented evidence, including a review of the resident’s medical
    record and conversations with nursing home staff. Thus, vaccination data collected in the
    MDS would likely be more accurate than self-reported data from the Resident Census.
    Finally, MDS data offer advantages in terms of timeliness and uniformity because nursing
    homes use standardized software to capture, edit, and transmit MDS data on an ongoing

Nursing Home Vaccination                       14                                   OEI-01-99-00010
    basis.

3. Facilitating Nursing Homes’ Access to Vaccines.

    To lower financial and procedural barriers to vaccination, HCFA allows nursing homes and
    others to use a simplified billing procedure called roster billing to seek reimbursement for
    vaccinating Medicare beneficiaries. Roster billing eliminates the need for nursing homes to
    submit individual bills for vaccinating residents by allowing homes to instead submit a roster
    of Medicare beneficiaries who received vaccines. Over time, HCFA has continued to facilitate
    billing procedures by expanding roster billing to include pneumococcal vaccine, dropping daily
    minimum thresholds for roster billing, and allowing standing orders for vaccinations.
    Medicare carriers, fiscal intermediaries, and PROs have worked with nursing homes to teach
    and encourage them to use roster billing. In addition, HCFA has worked with industry
    partners such as the American Health Care Association and the American Association of
    Homes and Services for the Aging to publish an annual fact sheet on influenza and
    pneumococcal billing procedures that is tailored for nursing homes.

    HCFA could increase use of the PROs, fiscal intermediaries, and carriers to
    teach nursing homes about Medicare roster billing.

    We recognize the amount of outreach that HCFA and its agents have done to encourage
    nursing homes to use roster billing. Yet, more work may be required in this area, particularly
    in light of the recent implementation of Medicare’s prospective payment system for nursing
    homes. Under this system, HCFA may wish to consider increasing its use of PROs, fiscal
    intermediaries, and carriers to teach nursing homes about roster billing and what impact
    prospective payment has on their ability to bill Medicare for vaccinations. To make the most
    effective use of its resources, HCFA could use billing or other data to identify and focus
    efforts on nursing homes that have the most difficulty billing Medicare.


4. Enhancing Education About Vaccine Safety and Efficacy.

    HCFA and CDC have conducted several educational activities focused on increasing influenza
    and pneumococcal vaccination in nursing homes. For example, in 1997, they jointly published
    a one-page ‘Special Alert for Nursing Homes,’ stressing the safety of influenza and
    pneumococcal vaccines and urging nursing homes to make them available to Medicare
    beneficiaries. HCFA distributed this bulletin to all nursing homes in the country along with an
    annual fact sheet on billing Medicare for vaccinations. CDC recently completed work on a
    comprehensive handbook for nursing home vaccination that will provide nursing homes with
    information on vaccine guidelines, vaccination programs, and simplified Medicare billing,
    among other things.. In addition, Medicare PROs are involved in several projects focused on
    improving vaccination coverage in nursing homes, including their new effort to promote the
    use of standing orders for vaccination in nursing homes.




Nursing Home Vaccination                        15                                    OEI-01-99-00010
    HCFA and CDC could use the Minimum Data Set to identify and reach out to
    nursing homes with low vaccination rates.

    Provided HCFA chose to use the MDS to collect vaccination data, it and CDC could use
    these data to identify and assist nursing homes whose vaccination rates lag behind the Healthy
    People objective. HCFA could distribute nursing home-level data on vaccination coverage to
    its regional vaccination coordinators and Medicare PROs. CDC could distribute the data to
    its vast network of field offices and State and local public health offices. This would allow
    officials in the field to identify nursing homes with low vaccination rates and engage them on
    an individual, proactive basis. This hands-on approach would complement HCFA and CDC’s
    broader activities by focusing efforts on lagging homes for which passive education may not
    be enough. In addition, this approach would leverage the expertise of their field staff, who are
    familiar with local nursing homes and the populations they serve, as well as the educational
    barriers nursing homes face.




Nursing Home Vaccination                        16                                     OEI-01-99-00010
                COMMENTS ON THE DRAFT
                      REPORT

We received comments on the draft report from the Health Care Financing Administration
(HCFA), the Centers for Disease Control and Prevention (CDC), and the Health and Human
Services Assistant Secretary for Program Evaluation (ASPE). We include the complete text of
the comments in Appendix B.

Comments from HCFA and ASPE

    The HCFA and ASPE concurred with the opportunities for improvement we identified. In its
    comments, HCFA outlined its plans for adding vaccination to the MDS, for increasing the use
    of Medicare contractors and PROs to teach nursing homes about Medicare roster billing, and
    for using MDS data to target education. Regarding mandating that nursing homes assess
    residents for vaccinations upon admission, HCFA outlined efforts it and its contractors are
    taking to persuade nursing homes to integrate vaccination into the admission process.
    However, it agreed that if these efforts are unsuccessful, it could consider making vaccination
    a mandatory Condition of Participation for nursing homes. We are pleased that HCFA has
    agreed to take action in each of the areas we identified.

    In addition, HCFA and ASPE recommended that we clarify that nursing homes should offer
    residents the influenza vaccine during the flu season as well as upon admission. In response,
    we made minor changes to the language in our report. However, we continue to stress the
    importance of the admission process to vaccination. This is by no means meant to preclude
    addressing vaccination more frequently. However, admission is the optimal time to get the
    resident’s or family’s consent to vaccination, to document vaccination history, and to get
    physician’s orders — regardless of whether it occurs during the flu season. Assessing new
    residents upon admission can ensure that these items are in place when it is time for nursing
    homes to carry out their seasonal influenza vaccination programs.

    Finally, ASPE recommended that we discuss Medicare coverage rules, how Medicare
    determines vaccine reimbursement, and the adequacy of reimbursement, among other things.
    While we agree that these are important issues that warrant further study, they fall outside of
    the scope of this inquiry.

Comments from CDC

    In its comments, CDC recommended that we give more prominence to integrating vaccination
    into the admission process, vaccination of nursing home staff, and using consultant
    pharmacists, among other things. Based on these and a separate set of technical comments
    from CDC, we strengthened language related to integrating vaccination into the admission
    process, referenced ACIP recommendations for vaccination of nursing home staff, and
    clarified language throughout the report.


Nursing Home Vaccination                         17                                    OEI-01-99-00010
                                                                                APPENDIX A


                              Measurement Initiatives

Overview

Measurement initiatives are efforts to measure vaccination rates and learn about vaccination issues
in nursing homes. They can tell States which nursing homes are reaching vaccination goals and
give insights into barriers and to best practices for vaccination. Public health agencies and nursing
home oversight bodies can use this information to guide action aimed at enhancing vaccination
rates. For example, States may create educational programs for nursing home staff and residents
or focus on vaccination procedures during their annual certification surveys of nursing homes.

Several potential problems may weaken the usefulness of measurement initiatives. Because
measurement usually takes the form of a survey, poor survey design or poor response rates can
generate unreliable data. Second, even with good data, measurement initiatives have limited
impact when States fail to use the data they collect to take action to increase vaccination rates.

Massachusetts

    Description
    Since 1996, Massachusetts has conducted an annual “Pneumonia Survey” of nursing homes.
    The State began the initiative after its Division of Health Care Financing and Policy identified
    pneumonia as the top diagnosis of nursing home residents admitted to hospitals. The State’s
    survey collects data that include the numbers of residents and staff who received
    pneumococcal and influenza vaccines, reasons for resident refusal of vaccines, and residents
    who were transferred to the hospital with pneumonia. The purpose of the survey is to collect
    data that the State can use to target education aimed at increasing vaccination coverage and
    reducing resident admissions to hospitals due to pneumonia. In addition to its survey, the
    State also has a vaccine purchase initiative that provides influenza and pneumococcal vaccines
    to nursing homes.

    Experience
    After receiving only 31 out of 100 surveys the first year of its initiative, the State held a
    feedback meeting with respondent nursing homes to redesign its survey. The next year, the
    State mailed a revised survey to over 500 nursing homes in Massachusetts. It followed up on
    the survey by sending field nurses to pick up completed surveys in person and do a quality
    check of the survey responses with nursing home staff.19 The State implemented this process
    fairly easily, since it already sent field nurses to nursing homes to perform audits of Medicaid
    data. Using this method, the State increased its response rate to about 95 percent and
    enhanced the quality of the responses. In 1998, the State added questions to its survey and




Nursing Home Vaccination                         18                                     OEI-01-99-00010
                                                                              APPENDIX A


    repeated this approach.

    Using the survey, the State learned where vaccination rates lagged and where to target
    educational efforts. For example, it learned from its survey that, in 1997, 82 percent of
    nursing home residents in the State received an influenza vaccination. However, it also
    learned that pneumococcal vaccination and vaccination of nursing home staff trail far behind
    that of influenza. Preliminary data from the 1998 survey shows that rates are climbing, but
    still have room for improvement. The State plans to use these data to design educational
    programs for nursing homes and to challenge those with low vaccination rates to improve.

    Nursing home representatives we spoke with found the survey was effective at raising
    awareness of the importance of vaccination and fostering collegial relations with the State.
    They also said that the State’s field nurses were helpful because they could provide feedback
    based on what they had seen in other facilities. In fact, the nursing home representatives we
    spoke with said that more comparative data would be useful as a benchmark of their
    performance. However, they also find that the State’s survey effort fails to address what they
    feel remains a major barrier to vaccination — resident and staff misperceptions about the
    influenza and pneumococcal vaccines.


Montana

    Description
    To track vaccination in nursing homes, the Immunization Program of Montana Department of
    Public Health and Human Services conducted a series of vaccination surveys. Officials at the
    Immunization Program began the initiative in 1991 as a telephone survey of 15 nursing homes.
    Later, they developed a short written survey, which they mailed to all nursing homes in 1994,
    1996, and 1998. The survey collected data on resident and staff vaccination levels as well as
    data on vaccination policies. Program officials are using the survey data to guide their efforts
    to increase vaccination coverage in nursing homes.

    Experience
    Officials at the Immunization Program report that their survey has been successful at gathering
    useful data on nursing home vaccination. Through persistent telephone follow-up of
    unresponsive nursing homes, program officials have maintained a response rate of just under
    70 percent of the State’s nursing homes for the past three surveys. In addition, a recent
    survey conducted by the local Medicare PRO generated vaccination data that corroborated
    the results of the Immunization Program’s survey.

    Immunization Program officials use the survey data to assess progress on reaching the
    Healthy People 2000 vaccination objectives and to guide educational strategies. For



Nursing Home Vaccination                        19                                     OEI-01-99-00010
                                                                               APPENDIX A


    example, in 1998, data revealed that nursing homes exceeded the Healthy People 2000
    objective by vaccinating 92 percent of the State’s residents against influenza, while
    pneumococcal vaccination trailed behind at 71 percent. However, the data also revealed that
    nursing homes with standing orders for pneumococcal vaccine had higher vaccination rates.
    Armed with this information, program officials now recommend that nursing homes use
    standing orders for pneumococcal vaccine as a way of increasing their vaccination rates.
    Program officials are including this and similar expertise in a vaccination training manual for
    the Immunization Program’s field nurses to use when they visit nursing homes. Yet despite
    these strides, officials report that competing priorities and reduced funding threaten to
    discontinue their adult immunization program.


Illinois

    Description
    In 1993, officials at the Illinois Department of Public Health began surveying nursing homes in
    response to outbreaks of flu-like illness in nursing homes. During follow-up calls to nursing
    homes where outbreaks occurred, Department officials learned that many nursing homes
    lacked standard written vaccination policies. In response, they designed a survey to collect
    vaccination data and to increase nursing homes’ awareness of strategies that prevent influenza
    and pneumococcal disease. The survey collects data on nursing homes’ vaccination coverage,
    policies for staff and resident vaccination, and Medicare billing activity.

    Experience
    Department officials report mixed success in carrying out their survey initiative. While their
    1998 survey achieved a 67 response rate and piqued interest from nursing homes, officials say
    that vague responses from nursing homes have undermined the usefulness of some survey
    questions. For example, where the survey asks for the numbers of residents who have
    received vaccines, many homes answered ‘all’ or ‘most,’ thus preventing officials from
    calculating reliable coverage estimates. Officials would like to follow-up with nursing homes
    to validate the survey data, but staffing constraints prevent them from doing so.

    Despite these problems, Department officials do their best to make use of the survey data by
    sharing it with stakeholders who can use it to promote vaccination. For example, officials
    share aggregate survey data with the State’s survey and certification agency, who use it to
    draw attention to the importance of vaccination during on-site visits to nursing homes. The
    Department also shares data with the Illinois Adult Immunization Coalition, of which it is a
    founding member. The coalition includes the Medicare PRO and Part B carrier, nursing home
    trade associations, and the HCFA regional office, among others. Coalition partners frequently
    reference the Department’s survey data in their educational efforts.




Nursing Home Vaccination                         20                                    OEI-01-99-00010
                                                                               APPENDIX A


                                   Mandate Initiatives


Overview

Mandate initiatives are laws or regulations that require nursing homes to offer vaccines to all
residents. They offer States the most sweeping and direct way of addressing influenza and
pneumococcal vaccination in nursing homes. States can fold vaccination mandates into standards
that nursing homes must meet for State licensure, such as those for infection control. They can
assess compliance with mandates on an ongoing basis by reviewing nursing home policy,
residents’ vaccination records, and other information during annual licensure and certification
surveys. States can enforce mandates by imposing fines on noncompliant nursing homes or
ordering them to submit plans for improving their vaccination programs.

However, vaccination mandates do not guarantee that homes will achieve high vaccination rates.
Vaccination mandates can lose effectiveness if States fail to assess nursing homes’ compliance or
fail to take action against those who are noncompliant. In addition, misperceptions about
vaccination among nursing home residents can lead to high refusal rates for vaccines — thus
undermining even the most well-enforced mandate.

New Jersey

    Description
    New Jersey administrative code mandates nursing homes to offer every new resident influenza
    and pneumococcal vaccines upon admission. In addition, it requires nursing homes to offer
    influenza vaccine to all existing residents during flu season. The State created its mandate in
    1998 as part of a broad vaccination campaign designed to ensure that at least 80 percent of
    seniors receive the opportunity to get vaccinations.20 The State’s Long Term Care
    Assessment and Survey unit enforces the vaccination mandate by checking nursing homes’
    policies, procedures, and vaccination rates during the infection control portion of its annual
    licensure surveys.

    Experience
    State officials are pleased with their efforts but believe they must do more than simply
    mandate that nursing homes offer vaccines to residents. While citing nursing homes’ high
    compliance and low number of disease outbreaks as evidence that their approach to
    vaccination is working, officials also concede that vaccination rates still fall short of their
    goals. State officials believe that high numbers of resident refusals of vaccines are holding
    nursing homes’ influenza vaccination rates to between 70 percent and 80 percent and
    pneumococcal vaccination rates to around 40 percent. They would like to address this
    problem by supplementing their mandate with a program to educate nursing home residents,
    their families, and personal physicians about the importance of vaccination.


Nursing Home Vaccination                         21                                     OEI-01-99-00010
                                                                               APPENDIX A


    Nursing home staff we spoke with said their facilities have had little difficulty complying with
    the State’s vaccination mandates. To meet the pneumococcal vaccination requirement, they
    established a program that uses admission orders to assess every admission for pneumococcal
    vaccination and document acceptance or refusal of vaccines in each resident’s vaccination
    record. To meet the influenza requirement, they set up a seasonal vaccination program that
    assesses all existing residents for influenza vaccination by November 30th and every new
    admission until February 1st.


Delaware

    Description
    Since 1990, Delaware State Board of Health regulations have required nursing homes to
    document influenza and pneumococcal vaccination for every resident, as indicated by CDC’s
    Advisory Committee on Immunization Practices (ACIP). Officials at the Board of Health
    wrote the regulations to supplement their educational efforts on vaccination safety and
    efficacy. The mandate is enforced through the State’s survey and certification process which,
    until recently, was conducted by the Board of Health’s Office of Health Facility Licensing and
    Certification.21

    Experience
    Citing full compliance with the mandate, officials at the Board of Health believe that the
    mandate has been successful in large part because of work done early on in the mandate’s
    development. For example, prior to publishing final regulations for the mandate, they held
    public hearings to seek input and buy-in from the public, nursing homes, and physicians.
    Perhaps more importantly, they also started a program to provide free influenza and
    pneumococcal vaccines to nursing homes, which continued until Medicare began paying for
    influenza vaccine in 1993. Finally, officials also attribute success to detailed enforcement of
    the mandate after it was enacted, which put nursing homes on notice that the Board of Health
    took the mandate seriously.

    Despite success with their vaccination mandate, officials identified enhancements that would
    have made for a smoother implementation of the mandate. In-service training for nursing
    homes would have taught nursing home staff about the importance of vaccination, details of
    the regulation that established the mandate, and how to set up vaccination programs to aid
    compliance with the mandate. Training surveyors on how to examine vaccination records and
    developing standardized vaccination logs for nursing homes would have streamlined the
    survey process, which was initially slow and awkward.




Nursing Home Vaccination                         22                                    OEI-01-99-00010
                                                                              APPENDIX A


                                 Purchase Initiatives


Overview

Purchase initiatives are programs where States provide free vaccines to nursing homes. Because
they enable nursing homes to provide influenza and pneumococcal vaccines to all residents
regardless of their insurance coverage, vaccine purchase initiatives can dramatically increase
access to vaccines. Also, by aggregating the vaccine needs of an entire State’s nursing homes into
one vaccine order, States remove the burden of ordering vaccines and negotiate stronger, more
reliable purchasing agreements with vaccine manufacturers. Finally, although seasonal purchases
of influenza vaccine are the centerpiece of purchase initiatives, vaccine purchases may also include
pneumococcal and other vaccines on a year-round basis.

States face two problems that may undermine the effectiveness of vaccine purchase initiatives.
First, even with free vaccines, nursing homes may elect not to participate in the initiative.
Although vaccine purchases remove the burden of purchasing and seeking reimbursement for
vaccines, they may do little to ease the workload and financial burden associated with
administering vaccines — which in the case of influenza vaccine is nearly as high as the cost of the
vaccine itself. Second, resident refusals of vaccination due to concerns about vaccine safety and
efficacy can negate the impact of open access to vaccines created by vaccine purchases.

Oklahoma

    Description
    Since 1991, the Oklahoma Department of Health has worked to increase access to vaccines by
    providing free influenza vaccine to nursing homes. Department officials initially decided to
    purchase vaccines for nursing homes because Medicare did not pay for the influenza vaccine.
    Without free vaccines, officials felt that Oklahoma’s nursing homes would not vaccinate their
    residents. Although Medicare began paying for influenza vaccine in 1993, the Department has
    continued to purchase vaccines for nursing homes. In fact, it is working to expand its
    purchase to include pneumococcal vaccine, even though it, too, is covered by Medicare.
    Department officials say that their program remains a vital source of vaccines because only
    half of Oklahoma nursing homes bill Medicare for services and, of those, few find that
    Medicare reimbursement makes it worthwhile to vaccinate their residents.

    Experience
    Officials at the Department of Health report that their vaccine purchase has made major
    inroads to protecting nursing home residents from influenza. Yet, they cite continual funding
    shortages as a major hurdle to further success. For example, in 1998, the State was unable to
    provide influenza vaccine to about 15 percent of facilities due to funding limitations.



Nursing Home Vaccination                        23                                     OEI-01-99-00010
                                                                                APPENDIX A


    Department officials project that their new pneumococcal vaccine program may fail to meet
    demand as well. To remedy the situation, they are developing a program to recoup vaccine
    costs by billing Medicare for doses given to Medicare-eligible nursing home residents.
    However, Department officials report difficulty getting homes to send in the billing
    information that is required for Medicare reimbursement. To overcome this problem, officials
    plan to hire a contractor to provide technical assistance to nursing homes and to bill Medicare
    on the State’s behalf.


Louisiana

    Description
    The Immunization Program at the Louisiana Department of Health and Hospitals works to
    remove financial barriers to vaccination by providing free influenza vaccine to nursing homes.
    The program began in 1984 when the State legislature started setting aside Medicaid funds to
    purchase influenza vaccines for Medicaid recipients and residents of nursing homes. In 1999,
    the Immunization Program got funding from the Department of Health and Hospitals to
    provide pneumococcal vaccine with the stipulation that it recoup the expense of the vaccine
    by billing Medicare.

    Experience
    Citing a 90 percent vaccination rate, officials at the Immunization Program say that their
    influenza initiative is working well. In fact, because their program has consistently provided
    free influenza vaccine for nearly 15 years, officials say that there are no financial barriers to
    getting the vaccine, which has led vaccination to become ‘standard procedure’ at Louisiana’s
    nursing homes. Recently, officials began working with the local Medicare PRO to teach
    nursing homes how to bill Medicare for vaccination. This would further reduce financial
    barriers to vaccination by allowing nursing homes to be paid for their effort administering
    vaccinations. Billing Medicare would also enable the Immunization Program to recoup the
    cost of vaccines that it provides to Medicare beneficiaries in nursing homes. However,
    despite the financial incentive for nursing homes, officials report problems getting them to
    provide information that Medicare requires for reimbursement, such as each resident’s name,
    address, Medicare number, date of birth, signature, and the date the vaccination was given.

    This difficulty with billing for influenza vaccine has prompted Immunization Program officials
    to delay offering pneumococcal vaccine to nursing homes. Officials are concerned that they
    will be unable to recoup the expense of the vaccine, as directed by the Department of Health
    and Hospitals. Moreover, officials say that Medicare reimbursement for pneumococcal
    vaccine was recently reduced and, even if nursing homes did turn in adequate billing
    information, it may not be enough for them to continue the pneumococcal initiative.




Nursing Home Vaccination                          24                                     OEI-01-99-00010
                                                                                APPENDIX A


                                Educational Initiatives


Overview

Educational initiatives are programs designed to educate nursing home residents, staff, physicians,
residents’ families, and others about vaccines and vaccine-preventable illnesses. Through
education about the safety and efficacy of vaccines as well as the severity of the illnesses they
prevent, educational initiatives seek to increase demand for vaccines. For nursing home staff and
physicians, education reinforces the importance of vaccinating nursing home residents and keeps
them informed of the latest guidelines for vaccine usage, such as those from the ACIP. For
nursing home residents and their families, education addresses common misperceptions and fears
that can undermine residents’ willingness to accept potentially life-saving vaccines.

There are several potential problems that can limit the effectiveness of educational initiatives. If
States do not have an adequate understanding of where the vaccination process is breaking down,
they may target education toward the wrong audience. Second, even well-targeted education can
be ignored if not presented in an engaging manner and on a level of detail that is appropriate for
its intended audience.

New York

    Description
    Since the late 1970s, officials at the New York State Department of Health have informed
    nursing homes about vaccination by mailing them an annual influenza information packet.
    When State officials began their initiative, they decided that, rather than spending the majority
    of the influenza season investigating outbreaks, they would instead try to prevent them
    through education. To that end, they developed an information packet to raise awareness of
    influenza and to help nursing homes in their vaccination efforts. The packet includes
    information on the benefits and safety of vaccination, vaccine administration guidelines,
    vaccine ordering, and record-keeping. State officials mailed similar packets about
    pneumococcal disease in 1993 following a well-publicized pneumococcal outbreak and in
    1997 to announce changes in ACIP guidelines for pneumococcal vaccine.

    Experience
    State officials have accomplished annual mass distribution of their information packet, but face
    challenges that limit the effectiveness of their efforts. As part of a wider adult vaccination
    project, they copy and distribute the packet to several health care settings, including about
    250 hospitals, 550 assisted living facilities, and 650 nursing homes. State officials, though, are
    unsure of who at the nursing home receives the packet, if they are using it, or are finding it
    useful. State officials say they would like to conduct in-person follow-up



Nursing Home Vaccination                         25                                     OEI-01-99-00010
                                                                             APPENDIX A


    with nursing homes, but have other responsibilities that demand their time and resources.
    Ironically, outbreaks of influenza — which the State’s educational program aims to prevent —
    provide officials with the best opportunity to educate nursing homes about vaccination, since
    they must go on-site to investigate each outbreak.

    Nursing home representatives we spoke with said that the State’s informational mailings are
    useful, but also suggested ways that the educational campaign could be improved. They
    praised the packet for serving as an annual reminder and technical resource, but also said that
    the State should do more to target nursing home residents, their families, and the residents’
    doctors, who can be influential vaccination advocates. Rather than mailing a standardized
    packet of information to nursing homes, they recommended that the State tailor its education
    to meet the specific needs and level of understanding of different audiences — for example, an
    ‘eye-catching pamphlet’ for low level nursing home staff or public service announcements for
    residents and their families.




Nursing Home Vaccination                        26                                    OEI-01-99-00010
                                                           APPENDIX B


                           Comments on the Draft Report





Nursing Home Vaccination                27                     OEI-01-99-00010
                                APPENDIX B




Nursing Home Vaccination   28       OEI-01-99-00010
                                APPENDIX B




Nursing Home Vaccination   29       OEI-01-99-00010
                                APPENDIX B




Nursing Home Vaccination   30       OEI-01-99-00010
                                APPENDIX B




Nursing Home Vaccination   31       OEI-01-99-00010
                                APPENDIX B




Nursing Home Vaccination   32       OEI-01-99-00010
                                APPENDIX B




Nursing Home Vaccination   33       OEI-01-99-00010
                                                                           APPENDIX C


                                        Endnotes



1. J. Pekka Nuotari et al., “An Outbreak of Multidrug Resistant Pneumococcal Pneumonia and
Bacteremia Among Unvaccinated Nursing Home Residents,” New England Journal of Medicine
338 (June 25, 1998) 26: 1861-1868.

2. Alan P. Kendal and Peter A. Patriarca (eds.), Options for the Control of Influenza (New York:
Alan R. Liss, Inc., 1986), 155-168.

3. Centers for Disease Prevention and Control, “Prevention and Control of Influenza:
Recommendations of the Advisory Committee on Immunization Practices (ACIP),” MMWR 48
(April 30, 1999) RR-04: 1-28.

4. Centers for Disease Prevention and Control, “Prevention of Pneumococcal Disease:
Recommendations of the Advisory Committee on Immunization Practices (ACIP),” MMWR 46
(April 4, 1997) RR-8: 17.

5. Centers for Disease Prevention and Control, “Immunization of Health Care Workers:
Recommendations of the Advisory Committee on Immunization Practices (ACIP) and the
Hospital Infection Control Practices Advisory Committee (HICPAC),” MMWR 46 (December 26,
1997) RR-18: 1-42.

6. U.S. Department of Health and Human Services, Healthy People 2000 - National Health
Promotion and Disease Prevention Objectives, PHS 91-50212, September, 1990.

7. U.S. Department of Health and Human Services. Healthy People 2010 (Conference Edition, in
Two Volumes). Washington, DC: January 2000.

8. Please see: Centers for Disease Prevention and Control, “Outbreaks of Pneumococcal
Pneumonia Among Unvaccinated Residents in Chronic-Care Facilities -- Massachusetts, October
1995, Oklahoma, February 1996, and Maryland, May-June 1996,” MMWR 46 (January 24, 1997)
3: 60-62; J. Pekka Nuotari et al., “An Outbreak of Multidrug Resistant Pneumococcal Pneumonia
and Bacteremia Among Unvaccinated Nursing Home Residents,” New England Journal of
Medicine 338 (June 25, 1998) 26: 1861-1868; Kristin L. Nichol, “Revaccination of High Risk
Adults with Pneumococcal Polysaccharide Vaccine,” Journal of the American Medical
Association 281 (January 20, 1999) 3: 280-181.

9. S.M. Greby, et al, “Influenza and Pneumococcal Vaccination Coverage in Nursing Homes,
United States, 1995" (abstract). In: Abstracts from the 32nd National Immunization Conference,
Atlanta, GA; 32nd National Immunization Conference, 1998.



Nursing Home Vaccination                      34                                   OEI-01-99-00010
                                                                             APPENDIX C


10. Ibid.

11. Please see: Centers for Disease Prevention and Control, “Recommendations of the Advisory
Committee on Immunization Practices: Programmatic Strategies to Increase Vaccination Rates —
Assessment and Feedback of Provider-Based Vaccination Coverage Information,” MMWR 45
(March 15, 1996) 10: 219-220; Centers for Disease Prevention and Control, “Measles, Mumps,
and Rubella — Vaccine Use and Strategies for Elimination of Measles, Mumps, and Congenital
Rubella Syndrome and Control of Mumps: Recommendations of the Advisory Committee on
Immunization Practices (ACIP),” MMWR 47 (May 22, 1998) RR-8: 1-57; National Vaccine
Program Office, “The Measles Epidemic - The Problems, Barriers, and Recommendations,”
Journal of the American Medical Association 266 (September 18, 1991) 11: 1547-1552.

11. Standing orders can play an important role in increasing vaccination. In fact, CDC’s
Advisory Committee on Immunization Practices recently voted to update its pneumococcal
vaccine guidelines to include a recommendation that providers use standing orders as a way to
increase vaccination coverage for pneumococcal disease. Charles Marwick, “New
Recommendation for Adult Immunization” Journal of the American Medical Association, 282
(December 15, 1999) 23: 2199. One journal article advises that vaccination should be “organized,
automatic, and planned with physician input, but not necessarily dependent on physicians for
implementation.” Lance C. Peterson and David S. Fedson, “Prevention, Management, and
Control of Influenza in the Institutional Setting,” The American Journal of Medicine 82 (June
19,1987) suppl. 6A: 58-60.

13. For more information on organized vaccination programs and vaccination during the
admission process, please see: Centers for Disease Prevention and Control, Prevention and
Control of Influenza: Recommendations of the Advisory Committee on Immunization Practices
(ACIP). MMWR 1999;48 (April 30, 1999) RR-4; American Society of Consultant Pharmacists,
100% Immunization Campaign Resource Manual, January 1999; Peter A. Patriarca, et. al.,
“Prevention and Control of Type A Influenza Infections in Nursing Homes,” Annals of Internal
Medicine 107 (November 1987) 5: 732-740; Robert J. Buynak and Jonathan M. Evans,
“Influenza in the Nursing Home: Prevention and Treatment,” Nursing Home Medicine 4
(November 1996) 11: 319-324; Kristin L. Nichol et al., “Immunizations in Long-Term Care
Facilities: Policies and Practice,” Journal of the American Geriatrics Society 4 (April 1996) 44:
349 - 355.

14. For more information on the need for uniform data on vaccination, please see: David S.
Fedson, “Summary of the National Vaccine Advisory Committee Report,” Journal of the
American Medical Association, 272 (October 12, 1994) 14: 1133 - 1137.

15. For more information on access to vaccines, please see: Fedson, “Summary of the National
Vaccine Advisory Committee Report,”: 1133 - 1137; Nichol et al., “Immunizations in Long-
Term Care Facilities,”: 349 - 355.



Nursing Home Vaccination                        35                                    OEI-01-99-00010
                                                                              APPENDIX C


16. For more information on education about influenza and pneumococcal vaccines, please see:
Centers for Disease Prevention and Control, “Recommendations of the Advisory Committee on
Immunization Practices (ACIP),”: RR-8; National Coalition on Adult Immunization, Improving
Influenza and Pneumococcal Immunization Rates Among High Risk Adults, May 1998; Nuotari
et al., “An Outbreak of Multidrug Resistant Pneumococcal Pneumonia and Bacteremia,”: 1861-
1868.

17. In fact, fear and misperceptions about vaccination may be on the rise, as evidenced by recent
controversy about the safety of childhood vaccination. For more information, please see
Stephanie Stapleton, "Vaccines Not Immune to Criticism," American Medical News 2 August
1999, In a Glance section, 1; "Vaccine Benefits Far Outweigh Any Risk," Newspage, 4 August
1999; Statement of David Satcher, Assistant Secretary for Health and Surgeon General,
Department of Health and Human Services, before the Committee on Government Reform, U.S.
House of Representatives (3 August 1999).

18. In addition to information about nursing home resident vaccination, the New York also sends
information about the potential impact of influenza on residents, the need for vaccination of health
care workers, information on how to diagnose influenza outbreaks early and institute control
measures, and how to contact the health department with questions regarding influenza
prevention and control.

19. Massachusetts’ Division of Medical Assistance has a staff of field nurses who visit nursing
homes quarterly to collect data for its prospective payment system.

20. New Jersey Department of Health and Senior Services (DHSS) may soon make this goal
more ambitious by raising its target numbers and changing its focus from ensuring that residents
are offered vaccines to ensuring that residents are vaccinated. In October, 1999, DHSS released
for comment a set of public health goals called, “Healthy New Jersey 2010 - A Health Agenda for
the First Decade of the New Millennium,” which, among other things, aims to increase influenza
and pneumococcal vaccine coverage in nursing homes to 90 percent.

21. In March of 1999, the Board of Health transferred responsibility for survey and certification
of nursing homes to a new division called Long Term Care Residents Protection.




Nursing Home Vaccination                        36                                     OEI-01-99-00010
